APPENDIX

TABLE OF CONTENTS
Appendix A: Court of Appeals Decision, July 14, 2020 .............................................. 1a
Appendix B: District Court Order, November 16, 2018 ........................................... 29a

Appellate Case: 19-2058

FILED Page: 1
Date Filed: 07/14/2020
United States Court of Appeals
Tenth Circuit

Document: 010110375829

APPENDIX A

July 14, 2020

PUBLISH

Christopher M. Wolpert
Clerk of Court

UNITED STATES COURT OF APPEALS
TENTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No. 19-2058

RAQUEL CORTEZ,
Defendant-Appellant.
----------------------------

----------------------------

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No. 19-2059

JOSEFINA REYES-MORENO,
Defendant-Appellant.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
(D.C. NOS. 2:18-CR-02639-KG-1 and 2)

Daniel Rubin (Meghan D. McLoughlin, Assistant Federal Public Defender, on the
joint briefs), Office of the Federal Public Defender, Las Cruces, New Mexico, for
Appellants.
Jennifer Rozzoni, Assistant United States Attorney (John C. Anderson, United
States Attorney, with her on the briefs), Office of the United States Attorney,
Albuquerque, New Mexico, for Appellee.

1

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 2

Before TYMKOVICH, Chief Judge, SEYMOUR, and MORITZ, Circuit Judges.

TYMKOVICH, Chief Judge.

After a routine traffic stop in New Mexico led to Raquel Cortez and
Josefina Reyes-Moreno’s indictment for conspiring to transport undocumented
aliens, both defendants jointly moved to suppress evidence based on Fourth and
Fifth Amendment violations they allege occurred during the stop. The district
court found no constitutional violations and denied the motion.
We agree no constitutional violations occurred during the stop. No Fourth
Amendment violation occurred because none of the law enforcement officers’
initial questions impermissibly delayed the stop and, during the stop, the officers
developed reasonable suspicion the defendants were transporting undocumented
aliens, justifying a further detention until Border Patrol arrived. No Fifth
Amendment violation occurred because neither Cortez nor Reyes-Moreno faced
custodial interrogation during the stop, rendering the absence of Miranda
warnings harmless.
We therefore AFFIRM.

-2-

2

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 3

I. Background
Sergeant Alvarez, a New Mexico State Police Officer, was parked on State
Road 80—a two-lane highway running north-south in southwest New Mexico
—when he recorded a northbound pickup truck going 66 mph in a 55 mph zone.
Sergeant Alvarez turned on his vehicle’s emergency lights, triggering the
vehicle’s dashboard camera, and pulled the pickup over for speeding. The stop
occurred about fifty miles from the Mexico border, and State Road 80 does not
have a Border Patrol checkpoint on it.
Traveling in the pickup were six individuals: Cortez and Reyes-Moreno,
two small children, and two adult male passengers. Cortez and Reyes-Moreno,
who are biological half-sisters and U.S. citizens, were in the front seat along with
one of the children, their nine-year-old niece. The other child, Cortez and ReyesMoreno’s eleven-year-old nephew, rode in the back with the two adult men. 1
Sergeant Alvarez initially approached the vehicle and spoke to the driver,
Cortez. They discussed how fast Cortez had been going, and Sergeant Alvarez
asked for Cortez’s license, insurance, and registration. Then, as was his practice,
he asked Cortez to come stand at the front right bumper of his police vehicle. She

1

Cortez and Reyes-Moreno’s niece and nephew are children of a third
sister who was not present at the stop.
-3-

3

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 4

obliged, and he followed her back to the squad car. According to his testimony,
Sergeant Alvarez did not notice the male passengers in the back seat at this time.
Back at his police vehicle, while running Cortez’s license through his
computer system to check for outstanding warrants, Sergeant Alvarez asked
Cortez a series of questions regarding her travel plans and whom she was
traveling with. He asked where Cortez was coming from, where she was headed,
and who was traveling with her. Cortez replied that she was coming from
Douglas, Arizona—which lies right on the Mexico border—and that she was
heading to Alabama with her sister, niece, and nephew. Cortez did not mention
the two adult men in the back seat.
Sergeant Alvarez asked a few questions regarding the relationship between
Cortez, Reyes-Moreno, and the children. He also inquired how long Cortez had
been in Douglas, whether she was working there, and where and with whom she
was staying while in Douglas. Cortez replied that she had not been working in
Douglas, and had been staying with her boyfriend. When Sergeant Alvarez asked
what he did for a living, she replied that he was a truck driver. Finally, Sergeant
Alvarez asked whose truck Cortez was driving, to which she responded that it was
Reyes-Moreno’s vehicle.
Sergeant Alvarez then returned to the pickup to “check some numbers,”
while Cortez remained by the police vehicle. The officer later testified that he

-4-

4

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 5

was checking the truck’s vehicle identification number at this time and the
dashboard camera video shows he checked something on the driver’s side of the
truck. Sergeant Alvarez then walked around to the passenger side and asked
Reyes-Moreno a series of questions similar to those he posed to Cortez. 2
While talking with Reyes-Moreno, Sergeant Alvarez noticed the two adult
men in the back seat of the pickup. He asked Reyes-Moreno about the men, and
later testified that she became defensive “like she didn’t want to be asked any
questions about the people that she was with.” R. at 108. Ultimately, ReyesMoreno said she did not know the men and that she and Cortez had picked them
up at a gas station. Sergeant Alvarez asked the men for identification. Initially,
neither responded. They looked straight ahead “as if they didn’t hear what
[Sergeant Alvarez] said.” R. at 101. After another inquiry, the men simply
replied “no.” Id.
At this point in time, approximately seven minutes into the stop, Sergeant
Alvarez returned to his police vehicle and radioed for assistance from Border
Patrol. He then proceeded to complete the remaining portions of the traffic stop,
including discussing how fast Cortez had been going, what her options were for
paying the ticket, and whether she planned to pay or contest the ticket.

2

Specifically, Sergeant Alvarez asked where they were coming from; why
they had been in Douglas; how long they had been there; and who had traveled
there together.
-5-

5

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 6

Sergeant Alvarez also continued to ask Cortez questions regarding whom
she was traveling with, the circumstances surrounding picking up the two men,
and whether there are a lot of lakes in Alabama. 3 During this time, Sergeant
Gomez, another New Mexico State Police Officer, arrived on the scene. She
discussed Cortez’s speed with Sergeant Alvarez and participated in some of the
questioning of Cortez.
Approximately twenty minutes into the stop, Border Patrol arrived. Shortly
thereafter, Sergeant Alvarez indicated the traffic stop had concluded, returning
Cortez’s license and providing her with a completed citation. In the subsequent
immigration investigation conducted by Border Patrol, the two adult men admitted
they were undocumented and present in the United States unlawfully.
As a result, Cortez and Reyes-Moreno were charged with conspiracy to
transport undocumented persons under 8 U.S.C. § 1324(a)(1)(A)(v)(I). In district
court, they filed a joint motion to suppress evidence and statements obtained from
the traffic stop. Relying on Rodriguez v. United States, 575 U.S. 348 (2015), they
argued that Sergeant Alvarez violated their Fourth Amendment rights by
impermissibly extending the scope of the stop beyond its mission without
independent reasonable suspicion. They also contended Sergeant Alvarez

3

With respect to inquiring about lakes in Alabama, Sergeant Alvarez
testified that “the address on the registration or on [Cortez’s] license said
something Lake, so I was just — I was having a conversation.” R. at 121.
-6-

6

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 7

violated their Fifth Amendment rights by questioning them without first providing
Miranda warnings.
The district court denied the motion. With respect to the Fourth
Amendment claims, the district court rejected the notion that any of Sergeant
Alvarez’s conduct impermissibly extended the scope or duration of the stop. As
to the Fifth Amendment claims, it found the circumstances of the stop did not
necessitate Miranda warnings because neither Cortez nor Reyes-Moreno ever
faced custodial interrogation. Cortez and Reyes-Moreno subsequently pleaded
guilty, but reserved the right to appeal the district court’s denial of their
suppression motion.

II. Analysis
Cortez and Reyes-Moreno allege the district court erred by denying their
motion to suppress in the face of Fourth and Fifth Amendment violations.
When reviewing the denial of a motion to suppress, “we view the evidence
in the light most favorable to the government, accept the district court’s findings
of fact unless they are clearly erroneous, and review de novo the ultimate question
of reasonableness under the Fourth Amendment.” 4 United States v. McNeal, 862

4

This represents the standard of review on appeal when the government
prevails. It is not the appropriate standard for the district court to apply in the
first instance when hearing a motion to suppress evidence. The district court
erred by doing so below. See R. at 66 (stating that “in deciding a motion to
(continued...)
-7-

7

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 8

F.3d 1057, 1061 (10th Cir. 2017) (quoting United States v. Lopez, 849 F.3d 921,
925 (10th Cir. 2017)).
A. Fourth Amendment
The Fourth Amendment guarantees the right of people to be “secure in their
persons, houses, papers, and effects against unreasonable searches and seizures.”
U.S. Const. amend. IV. A traffic stop is a seizure for Fourth Amendment
purposes, subject to the reasonableness requirement therein. United States v.
Pettit, 785 F.3d 1374, 1379 (10th Cir. 2015). To be reasonable, a traffic stop
must be justified at its inception and the officer’s actions must be “reasonably

4

(...continued)
suppress, the Court views the evidence in the light most favorable to the United
States”). Our research discloses that multiple district courts in this circuit have
committed the same error. See, e.g., United States v. Cruz, 338 F. Supp. 3d 1235,
1240 (D.N.M. 2018); United States v. Turner, No. 13-40050-01-JAR, 2013 WL
5727404, at *9 (D. Kan. Oct. 22, 2013). On a motion to suppress, “the district
court must assess the credibility of witnesses and determine the weight to give to
the evidence presented; the inferences the district court draws from that evidence
and testimony are entirely within its discretion.” United States v. Goebel, 959
F.3d 1259, 1265 (10th Cir. 2020).
Cortez and Reyes-Moreno argue in their reply brief that the district court’s
error requires reversal. But this argument comes too late. Where a litigant fails
to raise an issue in an opening brief, that party waives that issue. State Farm Fire
& Cas. Co. v. Mhoon, 31 F.3d 979, 984 n.7 (10th Cir. 1994). As we have
repeatedly held, we “will not entertain issues raised for the first time on appeal in
an appellant’s reply brief.” Platt v. Winnebago Industries, Inc., 960 F.3d 1264,
1271 (10th Cir. 2020) (quoting Anderson v. U.S. Dep’t of Labor, 422 F.3d 1155,
1174 (10th Cir. 2005)). Accordingly, we decline to consider Cortez and ReyesMoreno’s argument with respect to the standard of review.
-8-

8

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 9

related in scope” to the “mission of the stop.” United States v. Mayville, 955 F.3d
825, 829 (10th Cir. 2020) (quoting Rodriguez, 575 U.S. at 356). 5
An officer’s authority to seize the occupants of a vehicle ends when “tasks
tied to the traffic infraction are—or reasonably should have been—completed.”
Rodriguez, 575 U.S. at 354. An officer may not constitutionally prolong a stop
beyond that point except where (1) the seized individual consents or (2) the
officer has independent reasonable suspicion of criminal wrongdoing on behalf of
the seized individual that justifies further investigation. See Mayville, 955 F.3d at
830 (citing Rodriguez, 575 U.S. at 354–57); see also Pettit, 785 F.3d at 1379
(“Continued detention is lawful only if the encounter becomes consensual or if,
during the initial lawful traffic stop, the officer develops a ‘reasonable suspicion’
that the detained person is engaged in criminal activity.”).
Cortez and Reyes-Moreno argue that Sergeant Alvarez unreasonably
extended the scope of the stop by asking questions unrelated to the mission of
writing a traffic citation, and that he did so without independent reasonable
suspicion of criminal wrongdoing. 6 Taking these arguments in reverse order, we
5

Cortez and Reyes-Moreno do not dispute that the stop was justified at its
inception, requiring us to address only the second inquiry of whether it remained
reasonable throughout.
6

Cortez and Reyes-Moreno also contend Sergeant Alvarez lacked the
authority to perform “the functions of an immigration officer,” rendering the stop
invalid. Aplt. Br. at 17 (citing Arizona v. United States, 567 U.S. 387, 408
(continued...)
-9-

9

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 10

conclude that Sergeant Alvarez developed reasonable suspicion approximately
seven minutes into the stop and did not unreasonably prolong the stop through
unrelated questioning before that point.

6

(...continued)
(2012)). It is true that Sergeant Alvarez may have lacked the authority to validly
detain and investigate someone unlawfully present in the United States for civil
immigration offenses. See Arizona, 567 U.S. at 413. But Congress explicitly
granted him and other local police officers the authority to investigate and arrest
individuals for the criminal activity at issue here—transporting undocumented
aliens. 8 U.S.C. § 1324(c) (“No officer or person shall have authority to make
any arrests for a violation of any provision of this section except officers and
employees of the Service designated by the Attorney General, either individually
or as a member of a class, and all other officers whose duty it is to enforce
criminal laws.” (emphasis added)); see also Valle del Sol Inc. v. Whiting, 732
F.3d 1006, 1025 (9th Cir. 2013) (“Section 1324(c) allows state and local law
enforcement officials to make arrests for violations of § 1324.”); Santos v.
Frederick Cty. Bd. of Comm’rs, 725 F.3d 451, 464 (4th Cir. 2013) (same).
Indeed, the Supreme Court even recognized this authority in Arizona—the only
case Cortez and Reyes-Moreno rely on for their authority-based argument. 567
U.S. at 409 (recognizing 8 U.S.C. § 1324(c) as one “specific[] limited
circumstance[] in which state officers may perform the functions of an
immigration officer”).
Consistent with this authority, our case law confirms local law enforcement
may detain individuals for reasonable periods of time to await immigration
officials where the officers have reasonable suspicion that illegal trafficking is
occurring. See, e.g., United States v. Cota-Herrera, 75 F. App’x 695, 698 (10th
Cir. 2003) (reasonable suspicion of alien trafficking justified state trooper’s
fifteen-to-twenty minute detention until immigration officials arrived).
Accordingly, it is clear Sergeant Alvarez was not acting outside of his authority,
in investigating the transportation of undocumented aliens once he obtained
reasonable suspicion that such criminal activity was afoot.
-10-

10

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 11

1. Reasonable Suspicion
Reasonable suspicion accrues when an officer possesses a “particularized
and objective basis for suspecting criminal conduct under a totality of the
circumstances.” Pettit, 785 F.3d at 1379 (quoting United States v. Cortez, 449
U.S. 411, 417–18 (1981)). This is not an onerous standard. United States v.
Kitchell, 653 F.3d 1206, 1219 (10th Cir. 2011). Although the government bears
the burden of demonstrating the reasonableness of the suspicion, it requires
“considerably less” than a preponderance of the evidence and “obviously less”
than probable cause. Pettit, 785 F.3d at 1379. The existence of reasonable
suspicion does not require the officer to rule out the possibility of innocent
conduct, and in assessing reasonable suspicion we defer to a police officer’s
training and ability to discern innocent conduct from suspicious behavior. See
United States v. Simpson, 609 F.3d 1140, 1146 (10th Cir. 2010).
The United States contends Sergeant Alvarez developed reasonable
suspicion by the time he spoke to the two men in the back of the pickup, or
approximately seven minutes into the stop. We agree. At this time, the totality of
the circumstances included numerous factors indicating Cortez and Reyes-Moreno
may have been engaged in criminal transportation of undocumented aliens.
First, the geography and context of the stop generated suspicion. See
United States v. Brignoni-Pence, 422 U.S. 873, 884–85 (1975) (noting “proximity

-11-

11

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 12

to the [Mexico] border, the usual patterns of traffic on the particular road, and
previous experience with alien traffic are all relevant” factors in assessing
reasonable suspicion of alien trafficking). Here the stop occurred approximately
fifty miles from the Mexico border, with Cortez and Reyes-Moreno traveling
northbound away from the border on State Road 80. This particular road adds to
the reasonableness of suspicion because, as Sergeant Alvarez testified, State Road
80 is “unique” in that it is “the only route . . . directly from the border that
doesn’t have Border Patrol checkpoints.” R. at 14; United States v. Arvizu, 534
U.S. 266, 277 (2002) (noting that one of the factors which contributed to the
officer’s reasonable suspicion was the unusual route taken by the defendants,
which was commonly used by smugglers to avoid checkpoints); see also United
States v. Westhoven, 562 F. App’x 726, 728 (10th Cir. 2014) (relying on
testimony that “undocumented immigrant and drug smugglers used [Highway 80
in southern New Mexico] heavily due to the lack of border patrol checkpoints” in
finding reasonable suspicion existed). Cortez and Reyes-Moreno also both stated
they were coming from Douglas, Arizona, which lies directly on the border with
Mexico. Although not inconsistent with an innocent explanation, these factors
contribute to the reasonableness of suspecting Cortez and Reyes-Moreno of
trafficking. Brignoni-Pence, 422 U.S. at 884–85.

-12-

12

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 13

Second, Cortez and Reyes-Moreno’s evasiveness with respect to their
traveling companions contributes to the reasonableness of Sergeant Alvarez’s
suspicion. See United States v. Cash, 733 F.3d 1264, 1275 (10th Cir. 2013)
(holding evasiveness in response to questioning supports reasonable suspicion).
When initially asked with whom she was traveling, Cortez omitted any mention of
the two adult men. Reyes-Moreno similarly appeared evasive and defensive when
asked about the men. As Sergeant Alvarez testified, she reacted as if “she did not
want to be asked any questions about the people she was with.” R. at 29. Such
attempts to avoid discussing the identity of, and relationship among, traveling
companions contributes to the reasonable suspicion that some aspect of that
identity or relationship is incriminating.
We routinely discount individuals’ reactions to encountering law
enforcement when they can be easily explained as the type of common response
triggered by a police interaction. Indeed, we have recognized that mere
nervousness does not alone generate reasonable suspicion because “it is common
for most people to exhibit signs of nervousness when confronted by a law
enforcement officer whether or not the person is currently engaged in criminal
activity.” United States v. Salzano, 158 F.3d 1107, 1113 (10th Cir. 1998). But
here, the omissions and evasiveness of Cortez and Reyes-Moreno speak to a
separate type of reaction not “normally anticipated during a citizen-police

-13-

13

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 14

encounter.” Pettit, 785 F.3d at 1380 (finding extreme nervousness contributed to
reasonable suspicion because it was a reaction not ordinarily expected during
interactions with law enforcement). Ordinarily, citizens stopped for traffic
violations would not conceal or otherwise fail to acknowledge the presence of
traveling companions. Nor would they display a reluctance to discuss those
individuals or their relationship with them. Accordingly, Cortez and ReyesMoreno’s abnormal reactions contribute to reasonable suspicion.
Third, the reactions of the men to Sergeant Alvarez’s questioning
confirmed his reasonable suspicion of Cortez and Reyes-Moreno. Not only did
the men not possess identification, but they both were unresponsive and
recalcitrant in the face of questioning. As Sergeant Alvarez testified, each looked
“straight [ahead] as if they didn’t hear” Sergeant Alvarez’s questions. R. at
27–28. Given the context, geography, and other circumstances of the stop thus
far, the men’s reluctance to engage with law enforcement suggested that they may
be undocumented aliens. This, in turn, supported the suspicion that those
traveling with them—Cortez and Reyes-Moreno—were in the process of
transporting them illegally.
Finally, Cortez and Reyes-Moreno’s eventual explanations for traveling
with the men—that they had picked them up as hitch-hikers from a gas
station—contributed to reasonable suspicion despite being consistent and

-14-

14

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 15

ostensibly providing an innocent explanation for their conduct. Pettit, 785 F.3d at
1379 (“[F]actors consistent with innocent travel may contribute to reasonable
suspicion.”). Sergeant Alvarez was not required to credit their story, see id., and
it is understandable why he would not. After all, it is peculiar to some that two
women entrusted with their sister’s small children would pick up two strange men
they met at a gas station and then permit them to travel alone in the back seat in
close proximity to one of the children—an eleven year-old. Such “bizarre”
choices can contribute to reasonable suspicion. See United States v. White, 584
F.3d 935, 951 (10th Cir. 2009).
Of course, not every odd decision warrants suspicion simply “because it
indicates a choice that the typical person, or the officer, would not make.”
Simpson, 609 F.3d at 1149. But here Cortez and Reyes-Moreno’s decision to let
their young nephew ride in the back with these men undercuts their proffered
explanation that the men were complete strangers. Instead, their apparent comfort
with the men suggests a closer relationship consistent with transporting them
illegally. Although not alone sufficient to give rise to reasonable suspicion, this
warrants consideration in the analysis.
On the whole, these circumstances established reasonable suspicion that
Cortez and Reyes-Moreno were transporting undocumented aliens. Our
conclusion in this respect gives significant weight to the proximity to the border

-15-

15

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 16

and the fact that State Road 80 is unique for having no Border Patrol checkpoints.
Were a similar stop conducted in the middle of the country, our analysis might
turn out differently. But here we conclude that, approximately seven minutes into
the stop, Sergeant Alvarez possessed sufficient justification to detain Cortez and
Reyes-Moreno in order to further investigate his suspicions of trafficking.
Cortez and Reyes-Moreno rely on United States v. De La Cruz to counter
the suggestion that reasonable suspicion developed. See 703 F.3d 1193 (10th Cir.
2013). There, in assessing a stop that occurred in Tulsa, Oklahoma, we held an
officer lacked reasonable suspicion to continue detaining the driver of a vehicle
merely because a passenger—who was in the United States unlawfully—fled the
vehicle upon encountering the police. Id. at 1196. We found the passenger’s
unlawful presence in the United States failed to generate reasonable suspicion
with respect to the driver because such conduct constituted only a “status crime,
which would not necessarily suggest that the driver of the vehicle . . . was also
involved in criminal activity.” Id. at 1198. We also rejected the government’s
theory that the driver could be reasonably suspected of transportation under 8
U.S.C. § 1324(a)(1)(A)(ii) because we found that statute precluded only
transportation that “furthers an alien’s violation” and does not “encompass
persons who come into daily contact with undocumented aliens.” Id. at 1199.

-16-

16

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 17

Cortez and Reyes-Moreno would have us extend De La Cruz to the present
circumstances and hold that their passengers’ unlawful presence cannot cast
suspicion on Cortez and Reyes-Moreno, but the facts of the present case differ
significantly. Unlike in De La Cruz, where we emphasized that the seizure
occurred “a significant distance from the U.S. border,” here the stop occurred
only fifty miles from the Mexico border. Id. In fact, in De La Cruz, we
considered that the reasonable suspicion analysis may differ in such
circumstances. Id. at 1198 (noting that the analysis may be different “if the stop
occurred close to the U.S.-Mexican border on a highway or road frequently used
by illegal immigrants to enter the United States undetected”). The instant appeal
presents such a case where the geography and context of the stop warrant a
different outcome.
Moreover, unlike De La Cruz, here additional facts support suspicion of
Cortez and Reyes-Moreno beyond mere proximity to those unlawfully present in
the United States. For example, Cortez and Reyes-Moreno were evasive and
defensive when asked questions about with whom they were traveling. When
considered in conjunction with the location of the stop, these additional facts
provide a much stronger basis on which to conclude reasonable suspicion of
trafficking exists.

-17-

17

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 18

2. Unreasonable Delay Under Rodriguez
Having established reasonable suspicion accrued approximately seven
minutes into the stop, justifying the extension until Border Patrol arrived, we turn
to address whether any Fourth Amendment violation occurred prior to that point.
Cortez and Reyes-Moreno argue Sergeant Alvarez unreasonably prolonged the
stop through delinquency and by asking questions unrelated to the mission of
issuing a traffic citation.
A traffic stop may “last no longer than is necessary” to complete the
mission of the stop. Rodriguez, 575 U.S. at 354. The mission of the stop
includes both addressing the traffic violation warranting the stop and attending to
“related safety concerns.” Id. at 354, 356 (holding “negligibly burdensome
precautions” are permissible to protect officer safety in light of the fact that the
government’s “officer safety interest stems from the mission of the stop itself”);
United States v. Gurule, 935 F.3d 878, 884 (10th Cir. 2019) (“[T]he tolerable
duration of police inquiries in the traffic-stop context is determined by the
seizure’s ‘mission’—to address the traffic violation that warranted the stop, and
attend to related safety concerns.”).
As a preliminary matter, to the extent Cortez and Reyes-Moreno argue
Sergeant Alvarez was unreasonably delinquent in executing the citation during the
first seven minutes of the stop, we reject that contention. “Rodriguez does not

-18-

18

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 19

prohibit all conduct that in any way slows the officer from completing the stop as
fast as humanly possible.” United States v. Campbell, 912 F.3d 1340, 1353 (11th
Cir. 2019). Although it is appropriate to consider police diligence, Rodriguez,
575 U.S. at 354, the mere fact that an officer could, conceivably, have performed
a task more quickly than he did fails, on its own, to generate a Fourth Amendment
violation. “This is because reasonableness—rather than efficiency—is the
touchstone of the Fourth Amendment.” Mayville, 955 F.3d at 827; see also
Rodriguez, 575 U.S. at 354 (holding that “[a]uthority for the seizure thus ends
when tasks tied to the traffic infraction are—or reasonably should have
been—completed” (emphasis added)).
Here, nothing suggests any unreasonable delay or delinquency in the
manner Sergeant Alvarez conducted the first seven minutes of the stop. He
testified that he completed the stop in a way that was consistent with his
customary practice. And the dashboard camera reveals nothing to the contrary.
Thus, we turn to Cortez and Reyes-Moreno’s primary argument—that
Officer Alvarez impermissibly extended the stop by asking questions unrelated to
its mission. This we similarly find unavailing.
Our precedents establish that, in the context of an ordinary traffic stop, law
enforcement may engage in certain inquiries without running afoul of the Fourth
Amendment. For example, an officer may perform those activities necessary to

-19-

19

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 20

completing the citation such as “request[ing] a driver’s license and registration,
run[ning] requisite computer checks, and issu[ing] citations or warnings.” Pettit,
785 F.3d at 1379. An officer may also inquire about the driver’s travel plans and
the identity of the individuals in the vehicle. Id.; United States v. Cone, 868 F.3d
1150, 1154 (10th Cir. 2017) (finding general questions regarding travel plans and
identity reasonable under the Fourth Amendment); United States v. Morgan, 855
F.3d 1122, 1126 (10th Cir. 2017) (holding officer’s questions regarding identity
did not exceed the scope of a Terry stop).
In addition, because “[t]raffic stops are especially fraught with danger to
police officers,” law enforcement personnel may take “certain negligibly
burdensome precautions in order to complete [their] mission safely.” Rodriguez,
575 U.S. at 356. These may include conducting criminal record checks, searching
for outstanding warrants, or asking limited questions directed at ensuring officer
safety. Id.; Cone, 868 F.3d at 1153–54.
What law enforcement may not do is divert from the mission of the stop in
order to conduct general criminal interdiction or investigate other crimes. See
Rodriguez, 575 U.S. at 356 (holding “[o]n-scene investigation into other crimes . .
. detours from [the] mission” of the stop); Campbell, 912 F.3d at 1353 (“[A] stop
is unlawfully prolonged when an officer, without reasonable suspicion, diverts
from the stop’s purpose and adds time to the stop in order to investigate other

-20-

20

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 21

crimes”). Nor may an officer engage in “safety precautions taken in order to
facilitate such detours.” Rodriguez, 575 U.S. at 356.
With these principles in mind, we conclude none of Sergeant Alvarez’s
inquiries in the first seven minutes of the stop detoured from the stop’s mission.
First, Sergeant Alvarez was entitled to ask Cortez and Reyes-Moreno about their
own identities and the identities of their traveling companions. See Morgan, 855
F.3d at 1126; see also United States v. Fernandez, 600 F.3d 56, 60 (1st Cir. 2010)
(“[P]olice requests for identifying information typically do not trigger Fourth
Amendment concerns.”); Stufflebeam v. Harris, 521 F.3d 884, 888 (8th Cir. 2008)
(“[A] police officer does not violate the Fourth Amendment by inquiring into the
identity of a vehicle’s passenger during the course of a lawful traffic stop, even
absent reasonable suspicion that the passenger has committed a crime.”); United
States v. Diaz-Castaneda, 494 F.3d 1146, 1152 (9th Cir. 2007) (“The police may
ask people who have legitimately been stopped for identification without
conducting a Fourth Amendment search or seizure.”).
As we explained in Morgan, officer safety interests justify inquiries into
identity because “[k]nowledge of identity may inform an officer that a suspect is
wanted for another offense, or has a record of violence or mental disorder.” 855
F.3d at 1126; see also Cone, 868 F.3d at 1154 (recognizing that inquiries as to
identity are permissible for the purpose of protecting officer safety). Sergeant

-21-

21

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 22

Alvarez’s inquiries into the identities of Cortez, Reyes-Moreno, their niece and
nephew, and the two men fall into this category and are thus permissible.
Sergeant Alvarez was similarly entitled to inquire as to Cortez and ReyesMoreno’s travel plans. United States v. Moore, 795 F.3d 1224, 1229 (10th Cir.
2015) (holding “[a]n officer may . . . generally inquire about the driver’s travel
plans” without violating the Fourth Amendment). As we explained in United
States v. Holt, such inquiries are justified because “[t]ravel plans typically are
related to the purpose of a traffic stop.” 264 F.3d 1215, 1221 (10th Cir. 2001) (en
banc), overturned on other grounds by Muehler v. Mena, 544 U.S. 93 (2005).
Sergeant Alvarez’s questions regarding where Cortez and Reyes-Moreno
were coming from, where they were going, and how long they had stayed in
Douglas are permissible as they fit into the travel plans rubric and relate to the
mission of the stop. United States v. Alcaraz-Arellano, 441 F.3d 1252, 1259
(10th Cir. 2006) (“[A]n officer may routinely ask about travel plans . . . during a
lawful traffic stop.”). These questions could cast light on why Cortez had been
speeding, tying them to the initial justification for the stop. Holt, 264 F.3d at
1221 (explaining that such inquiries “may help explain, or put into context, why
the motorist was weaving (if tired) or speeding (if there was an urgency to the
travel)”).

-22-

22

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 23

The questions relating to whether Cortez was working in Douglas, whom
she was staying with while there, and what her boyfriend did for a living are
farther afield. But we find these questions permissible as the type of “negligibly
burdensome” inquiries directed at ensuring officer safety. See United States v.
Rice, 483 F.3d 1079, 1084 (10th Cir. 2007) (“While a traffic stop is ongoing . . .
an officer has wide discretion to take reasonable precautions to protect his
safety.”). As Sergeant Alvarez testified, he routinely asks innocuous background
questions to assess driver stress, nervousness, and evasiveness to help gauge the
degree of caution necessary in conducting a stop. R. at 162 (testifying that he
“engage[s] [people] in conversation . . . [f]or officer safety, to get a feel for
what’s going on, who you’re dealing with”); id. (noting that his practice is to
“have a conversation with [people] . . . on the side of the road we talk about
travel itinerary, you know what brings them to New Mexico, and based on that,
you know, we’ll determine okay, it’s common motoring public”).
The specific questions Sergeant Alvarez posed here represent only a few
conversational inquiries related to the identity and travel plans he and Cortez had
been discussing. After asking them, apparently satisfied that more precautions
were unnecessary, he immediately returned to the business of completing the stop.
Such questioning is consistent with both the public’s expectations regarding
ordinary inquiries incidental to traffic stops and taking the least burdensome

-23-

23

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 24

approach to ensuring officer safety. See Cone, 868 F.3d at 1153–54 (holding
asking a driver questions regarding his or her criminal history is justifiable as a
negligibly burdensome inquiry in part because “allowing the officer to ask the
question may provide important clues pertaining to safety, such as nervous or
evasive responses”).
Furthermore, after a review of the record, we are not convinced these
questions were posed as a pretext to “facilitate” a detour into investigating other
crimes. See Rodriguez, 575 U.S. at 356. A useful comparison here are the
questions Sergeant Alvarez and Sergeant Gomez posed to Cortez in the last
thirteen minutes of the stop. During that period, despite already knowing their
identities, Sergeant Alvarez asked Cortez whether she and Reyes-Moreno were
biological sisters, inquired whether there were a lot of lakes in Alabama, and
asked Cortez a series of repetitive questions regarding how long Reyes-Moreno
had been in Douglas. Both Sergeant Alvarez and Sergeant Gomez also inquired
in depth regarding the circumstances of picking up the two men.
Unlike the questioning in the first seven minutes of the stop, these inquiries
fail to relate to the mission of the stop. They neither helped investigate the
original infraction—speeding—nor could they reasonably be characterized as
relating to officer safety. Such inquiries could not be justified as an attempt to
“get a feel for what’s going on” or assuring the officers that Cortez did not pose a

-24-

24

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 25

threat. R. at 162. At this point in the stop, Sergeant Alvarez had already engaged
Cortez in conversation. After having made his preliminary inquiries, Sergeant
proceeded with the traffic stop without taking any additional precautionary
measures. He even let Cortez stand next to him and his police vehicle while he
completed portions of the citation.
Such an approach signals that from approximately seven minutes into the
stop, Sergeant was comfortable with the fact that Cortez posed no threat to his
safety, and no longer needed to take any precautions in that regard. Accordingly,
“view[ing] the officer’s conduct through a filter of common sense and ordinary
human experience,” we can assume without deciding that Sergeant Alvarez’s
questioning of Cortez during the final thirteen minutes of the stop would have
been impermissible, if it had not been justified by independent reasonable
suspicion. See United States v. Rice, 483 F.3d 1079, 1083 (10th Cir. 2007).
But in light of the reasonable suspicion that did accrue, that question is not
before us. And, in contrast to the questioning in the latter portion of the stop, we
find Sergeant Alvarez’s questioning in the first seven minutes of the stop
permissible as related to the mission of the stop. Accordingly, no Fourth
Amendment violation occurred.

-25-

25

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 26

B. Fifth Amendment
Cortez and Reyes-Moreno also allege violations of their Fifth Amendment
rights due to Sergeant Alvarez questioning them without providing Miranda
warnings. But Miranda warnings only need to be given once a suspect is in “custody”
and faces questioning that constitutes “interrogation.” United States v. Jones, 523
F.3d 1235, 1239 (10th Cir. 2008). Here, neither Cortez nor Reyes-Moreno faced
custody, precluding any Fifth Amendment violation.
An individual is in custody when a reasonable person in the suspect’s position
would understand his or her situation as “the functional equivalent of formal arrest.”
United States v. Revels, 510 F.3d 1269, 1273 (10th Cir. 2007). This is an objective
inquiry that considers the totality of the circumstances. Id. at 1275. The Supreme
Court clarified in Berkemer v. McCarty that investigatory detentions such as ordinary
traffic stops generally fall short of placing the detainee in custody. 468 U.S. 420, 440
(1984) (holding the “noncoercive aspect of ordinary traffic stops prompts us to hold
that persons temporarily detained pursuant to such stops are not ‘in custody’ for the
purposes of Miranda”); see also United States v. Eckhart, 569 F.3d 1263, 1275 (10th
Cir. 2009) (“Generally, Miranda warnings are . . . not implicated in the context of a
valid Terry stop.”).
This general principle controls here. Nothing about the circumstances of the
traffic stop suggest anything beyond an ordinary Terry stop occurred. As we observed

-26-

26

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 27

in Eckhart, the “police citizen encounter envisioned by the Court in Terry usually
involves no more than a very brief detention without aid of weapons or handcuffs, a
few questions relating to identity and the suspicious circumstances, and an
atmosphere that is substantially less police dominated than that surrounding [formal
arrest].” 569 F.3d at 1275–76.
This precisely describes the circumstances of Cortez and Reyes-Moreno’s
detention. Sergeant Alvarez was conversational and non-threatening. United States v.
Rogers, 391 F.3d 1165, 1170 (10th Cir. 2004) (subject not in custody where officers
“were courteous and non-threatening”). He followed his normal practices in
conducting the stop. No physical restraints were ever mentioned, threatened, or used.
Nor was there ever a need to use, brandish, or even discuss Sergeant Alvarez’s
firearm. Indeed, the questioning of Cortez and Reyes-Moreno related mainly to runof-the-mill traffic inquiries, and nothing in the record suggests the sort of encounter
that would be comparable to a formal arrest. By all standards, the stop was an
ordinary Terry stop lasting only twenty minutes. Accordingly, the general rule
precluding the necessity of Miranda warnings in such circumstances applies.
Cortez and Reyes-Moreno cite to United States v. Revels—in which this court
affirmed the suppression of statements obtained in violation of the Fifth
Amendment—but that case is readily distinguishable. See 510 F.3d at 1271–72. In
Revels, seven police officers entered the defendant’s home at 6:00 AM by force to

-27-

27

Appellate Case: 19-2058

Document: 010110375829

Date Filed: 07/14/2020

Page: 28

execute a search warrant. They immediately handcuffed the defendant, who was
wearing nothing but her underwear, and forced her to the ground. Subsequently, after
searching the house and discovering a bag of cocaine, the officers uncuffed the
defendant so she could change into clothes. Without re-cuffing her, three officers
brought her into a separate room, held up the bag of cocaine in front of her, and asked
questions in an “accusatory manner.” Id. at 1276. At this point, the defendant
provided incriminating statements she later sought, successfully, to suppress on the
basis that she had never been properly Mirandized.
Due to the drastic differences in circumstances, Revels provides no support for
the contention that Cortez and Reyes-Moreno’s statements here should be suppressed.
Sergeant Alvarez’s polite questioning in the context of an ordinary traffic stop is a far
cry from the intimidating, police-dominated atmosphere present in Revels in which
law enforcement relied on force and physical restraints.

III. Conclusion
For the reasons discussed herein, we conclude neither Cortez nor ReyesMoreno suffered a Fourth or Fifth Amendment violation during the traffic stop.
Accordingly, we AFFIRM the district court’s denial of their joint motion to suppress.

-28-

28

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 1 of 10

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
UNITED STATES OF AMERICA,
Plaintiff,
vs.

Cr. No. 18-2639 KG

RAQUEL CORTEZ and
JOSEFINA REYES-MORENO,
Defendants.

MEMORANDUM OPINION AND ORDER
This matter comes before the Court upon Defendants’ Joint Motion to Suppress Evidence
and Statements (Motion to Suppress), filed September 27, 2018. (Doc. 66). The United States
filed a response on October 18, 2018, and Defendants filed a reply on October 23, 2018. (Docs.
71 and 80). On October 25, 2018, the Court held an evidentiary hearing on the Motion to
Suppress. At the hearing, Luis Martinez and Samuel Williams represented the United States,
Bernadette Sedillo and Meghan McLoughlin represented Defendant Raquel Cortez, and Stephen
Hosford represented Defendant Josefina Reyes-Moreno. Both Defendants were present. Having
considered the Motion to Suppress, the accompanying briefs, the evidence admitted at the
October 25, 2018, hearing, and the argument of counsel at the hearing, the Court denies the
Motion to Suppress.

29

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 2 of 10

I. Findings of Fact1
On May 1, 2018, New Mexico State Police Officer Christopher Alvarez was working
Operation Stonegarden overtime between 1:00 p.m. and 6:00 p.m. Under Operation
Stonegarden, New Mexico State Police Officers notify Border Patrol of suspicious activities
subject to the Border Patrol’s jurisdiction.
On the afternoon of May 1, 2018, Officer Alvarez was parked next to New Mexico State
Police Sergeant Gomez along the west side of State Road 80 near mile marker 26, facing south.
State Road 80 is a two-lane highway running north-south. It is primarily used for smuggling
contraband and undocumented aliens from Mexico because it does not have a permanent Border
Patrol checkpoint. The speed limit between mile marker 25 and 30 on State Road 80 is 55 miles
per hour.
At 4:07 p.m., Officer Alvarez was running a stationary speed radar. At that time, he
observed a northbound pickup truck with an extended cab speeding at 66 miles an hour. Officer
Alvarez proceeded to make a U-turn in his patrol unit to stop the truck for a traffic violation. In
doing so, Officer Alvarez initiated the lights on his vehicle and his vehicle’s dash cam. The truck
stopped at mile marker 27. Officer Alvarez saw that the truck had an Alabama license plate.
After stopping behind the truck, Officer Alvarez entered the license plate in his Computer
Aided Dispatch (CAD). Tr. at 18. He then approached the passenger’s side door to speak with
the driver, identified as Defendant Cortez. Officer Alvarez identified himself and told Cortez the

1

In deciding a motion to suppress, the Court views the evidence in the light most favorable to
the United States. See, e.g., United States v. Turner, 2013 WL 5727404, at *9 (D. Kan.) (“While
the Court is cognizant that it must view the facts in the light most favorable to the Government, it
may not draw inferences that are not supported by the record, nor accept facts that are contrary to
the record.”); United States v. Ortega, 2012 WL 12894242, at *4 (S.D. Fla.) (“viewing the facts
adduced at the suppression hearing in the light most favorable to the government....”).

30

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 3 of 10

reason for the stop. Officer Alvarez then asked Cortez for her license, insurance, and
registration. Officer Alvarez noticed a female passenger, later identified as Defendant ReyesMoreno, and a child both sitting in the front seat. Officer Alvarez did not notice anyone sitting
in the rear seat.
Next, Officer Alvarez asked Cortez to exit the truck and stand near the right front area of
his patrol unit. Officer Alvarez asked Cortez questions about her travel plans and who was
traveling with her. Cortez responded that they were traveling from Douglas, Arizona, to
Alabama, and that she was traveling with her sister and nephews. Officer Alvarez asked Cortez
other questions about her niece and nephew, where she was staying, who she was staying with,
and whether she was working. Officer Alvarez also asked Cortez who owns the truck. While
speaking with Cortez, Officer Alvarez ran Cortez’s Alabama driver’s license on CAD to check
for any warrants. Tr. at 18. Officer Alvarez testified that he engages drivers in conversation to
assess officer safety.
Officer Alvarez then went back to the truck to check the VIN on the windshield to make
sure it matched the registration. While he was at the truck, Officer Alvarez asked Reyes-Moreno
questions about where she was coming from and how long she and Cortez had been in Douglas.
At that time, he noticed two adult males seated in the rear seat of the truck with a child in
between them. Consequently, Officer Alvarez asked Reyes-Moreno who was in the truck. She
stated that her niece and nephew were in the truck and two men. Reyes-Moreno further stated
that she did not know the men and that she and Cortez had picked them up at a gas station.
Officer Alvarez then asked the men for identification, which they did not have. Officer Alvarez
noted that they did not look directly at him.

31

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 4 of 10

Officer Alvarez then returned to his patrol unit to request a Border Patrol agent to check
the legal status of the men. About seven minutes elapsed from the time the truck stopped until
the time Officer Alvarez radioed for a Border Patrol agent.2
Officer Alvarez then questioned Cortez about whether she and Reyes-Moreno are
biological sisters and if there are lakes in Alabama. Apparently, Cortez’s driver’s license or the
registration had an address referring to a lake. Officer Alvarez testified that while he was
conversing with Cortez he was in the process of writing the citation. Officer Alvarez apparently
ran Reyes-Moreno’s driver’s license on CAD at that time. Tr. at 61.
About ten minutes into the stop, Officer Alvarez explained to Cortez the speeding citation
and how to either plead guilty or not guilty to the citation. Cortez stated she wanted to pay the
citation. Officer Alvarez noted that the fine would be in the 80s, suggesting that he had not yet
completed the citation and so could not yet give an exact amount for the fine. He also explained
to Cortez the different options for paying the fine. In fact, the traffic citation indicates that
Officer Alvarez began filling out the citation at 4:18 p.m., 11 minutes after the stop began.
Government Ex. 2. At about 12 minutes after the stop began, dispatch informed Officer Alvarez
that a Border Patrol agent would arrive in 20 minutes.
Officer Alvarez continued typing up the citation. About 13 minutes into the stop,
Sergeant Gomez arrived. After Sergeant Gomez arrived, Officer Alvarez asked Cortez more
questions about Reyes-Moreno’s stay in Douglas and about who was in the truck. Cortez
responded that she picked up the men at a gas station and that they wanted a ride to New Mexico.

The Court’s references to time come from Government’s Exhibit 1. Exhibit 1 is Officer
Alvarez’s dash cam video of the stop and encounter. The timeline on the video starts about one
minute and 30 seconds prior to the truck’s stop on the shoulder of the highway. The Court’s time
estimates begin when the truck stopped. Consequently, those time estimates rely on the video’s
timeline minus one minute and 30 seconds.
2

32

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 5 of 10

At this point, Cortez’s and Reyes-Moreno’s driver’s licenses were placed on the dashboard of
Office Alvarez’s patrol unit.
About 16 minutes after the stop began, Officer Alvarez informed Cortez that the penalty
assessment for the traffic citation is $87. This evidence shows that Officer Alvarez had
completed enough of the traffic citation to know the exact penalty assessment. Officer Alvarez
and Sergeant Gomez continued asking Cortez questions about the men and who was in the back
seat.
Approximately a minute or so after informing Cortez of the penalty assessment and the
additional questioning about the men, Officer Alvarez asked Cortez how much she weighed and
then went to the truck to check the registration to confirm the year of the truck’s manufacture.
According to Officer Alvarez, Cortez’s weight from her Alabama driver’s license and the year of
the truck did not populate the required citation fields as he was trying to complete the citation
form on the computer. It took Officer Alvarez about a minute to check the registration to
confirm the year of the truck’s manufacture and to walk back to his patrol unit.
The Border Patrol agent arrived about 18 minutes after the stop began. Before the Border
Patrol agent approached Officer Alvarez, Officer Alvarez stated to Cortez that he checked the
year of the truck’s manufacture and that he would explain the citation. Before Officer Alvarez
could explain the citation to Cortez, the Border Patrol agent came up to Officer Alvarez and
Officer Alvarez briefly told the Border Patrol agent that Cortez had picked up two men at a gas
station to give them a ride. Officer Alvarez then gave the citation to Cortez, instructing her to
pay the $87 fine in 30 days. About a minute later, Officer Alvarez retrieved the driver’s licenses
from patrol unit dashboard, thereby ending the portion of the encounter related to the traffic
citation. At that time, about 20 minutes had elapsed since the stop began.

33

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 6 of 10

Officer Alvarez testified that it could take between 10 and 20 minutes to complete a
traffic citation. Tr. at 31. One factor for taking longer to complete a traffic citation was the
“new system.” Id. With this new system, the computer could go down requiring the officer to
“mess with it” in order to fix the problem. Id.
The Court notes that the dash cam video contains multiple beeps on the audio coming
from the patrol unit, especially near the beginning of the stop. The Court finds that the evidence
does not adequately explain the meaning of specific beeps. As such, the Court cannot attribute
any significance to the beeps.
II. Conclusions of Law
Defendants argue that Officer Alvarez violated their Fourth Amendment right to be free
from unreasonable seizures as well as their Fifth Amendment right to have their Miranda rights
read to them prior to a custodial interrogation. Defendants, therefore, move to suppress the
identity of the two male passengers and the statements by Defendants and those males. The
United States opposes the Motion to Suppress in its entirety.
A. Whether Officer Alvarez Violated the Fourth Amendment
Defendants claim that Officer Alvarez unlawfully seized them by unreasonably
prolonging the traffic stop in order for the Border Patrol agent to arrive. The United States argues
that Officer Alvarez did not unreasonably prolong the stop. Alternatively, Defendants claim that
Officer Alvarez did not have a basis for extending the traffic stop. In response to this claim, the
United States argues that Officer Alvarez could extend the traffic stop because he had reasonable
suspicion to believe Defendants were transporting illegal aliens.
The Court recognizes that Defendants have the burden of proving whether the Fourth
Amendment is implicated. United States v. Hernandez, 847 F.3d 1257, 1263 (10th Cir. 2017).

34

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 7 of 10

The United States, on the other hand, bears the burden of proof by the preponderance of the
evidence to show that the challenged action did not violate Defendants’ Fourth Amendment
rights. United States v. Matlock, 415 U.S. 164, 177 (1974).
1. Whether Officer Alvarez Unreasonably Prolonged the Traffic Stop
For an investigative detention, or Terry stop seizure, to be reasonable under the Fourth
Amendment, an officer’s actions must be “reasonably related in scope to the circumstances
which justified the [stop] in the first place.” United States v. Morgan, 855 F.3d 1122, 1125 (10th
Cir. 2017) (quoting Terry v. Ohio, 392 U.S. 1, 20 (1968)). “[T]he tolerable duration of police
inquiries in the traffic-stop context is determined by the seizure's ‘mission’—to address the
traffic violation that warranted the stop, … and attend to related safety concerns….” Rodriguez v.
United States, 135 S. Ct. 1609, 1614 (2015). “Because addressing the [traffic] infraction is the
purpose of the stop, it may ‘last no longer than is necessary to effectuate th[at] purpose.’” Id.
(citation omitted). “Authority for the seizure thus ends when tasks tied to the traffic infraction
are—or reasonably should have been—completed.” Id. It is the “State's burden to demonstrate
that the seizure it seeks to justify on the basis of a reasonable suspicion was sufficiently limited
in scope and duration to satisfy the conditions of an investigative seizure.” Florida v. Royer, 460
U.S. 491, 500 (1983).
“Beyond determining whether to issue a traffic ticket, an officer's mission includes
‘ordinary inquiries incident to [the traffic] stop” such as inquiries involving “checking the
driver's license, determining whether there are outstanding warrants against the driver, and
inspecting the automobile's registration and proof of insurance.” Rodriguez, 135 S. Ct. at 1615
(citations omitted). In addition, “questions relating to a driver's travel plans ordinarily fall within
the scope of a traffic stop.” United States v. Williams, 271 F.3d 1262, 1267 (10th Cir. 2001).

35

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 8 of 10

Also, “[a]n officer … may conduct certain unrelated checks during an otherwise lawful traffic
stop,” but “he may not do so in a way that prolongs the stop, absent the reasonable suspicion
ordinarily demanded to justify detaining an individual.” Rodriguez, 135 S. Ct. at 1615.
However, “[o]n-scene investigation into other crimes … detours from” the mission of a traffic
stop. Id. at 1616. Furthermore, conducting “additional redundant checks in order to prolong the
stop … all without additional reasonable suspicion” makes “the prolongation unreasonable.”
United States v. $167,070.00 in U.S. Currency, 112 F. Supp. 3d 1108, 1121 (D. Nev. 2015), aff'd
sub nom. United States v. Gorman, 859 F.3d 706 (9th Cir. 2017), order corrected, 870 F.3d 963
(9th Cir. 2017).
In this case, once Officer Alvarez stopped the truck, Officer Alvarez engaged in inquiries
incident to a traffic stop such as checking drivers’ licenses, the license plate, the registration,
insurance, and the VIN. Officer Alvarez also asked Cortez and Reyes-Moreno about their travel
plans, an inquiry within the scope of a traffic stop. Admittedly, Officer Alvarez conducted
checks unrelated to the traffic stop, but he did so while completing the citation. Consequently,
he did not prolong the stop by conducting those checks. Moreover, Officer Alvarez did not take
additional time to investigate whether the adult male passengers, in fact, were illegal aliens.
Officer Alvarez merely asked the men for their identification and when they stated they did not
have identification, he properly requested a Border Patrol agent to come and investigate the
matter. Also, considering that Cortez’s Alabama driver’s license did not populate the part of the
citation requiring her weight and the year of the truck was missing on the citation, it was
reasonable, and not redundant, for Officer Alvarez to ask Cortez for her weight and to make sure
he had the correct year of the truck’s manufacture. Viewing the totality of the evidence in the
light most favorable to the United States and considering that there is no bright line rule for

36

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 9 of 10

determining the reasonableness of the scope and length of a traffic stop, the Court concludes that,
in this case, the scope and length of the stop for the traffic infraction was reasonable and did not
violate the Fourth Amendment.
Because the scope and length of the traffic stop was reasonable and not a violation of the
Fourth Amendment, the Court need not analyze whether the scope and length of the traffic stop
was reasonably extended on the basis of reasonable suspicion of alien smuggling. Consequently,
the Court will address next the Fifth Amendment claim.
2. Whether Officer Alvarez Violated the Fifth Amendment
Defendants also argue that Officer Alvarez violated the Fifth Amendment by
interrogating them without giving a Miranda warning first. The United States argues that the
Fifth Amendment was not implicated because Defendants were not in custody during the traffic
stop.
Under Miranda, the government is barred from using at trial statements obtained during a
custodial interrogation before the defendant is given the Miranda warning, unless the defendant
waived those rights. Miranda v. Arizona, 384 U.S. 436, 444 (1966). “Miranda thus established a
two-part analysis for determining when the prescribed procedural safeguards must be provided:
(1) the individual must be in custody, and (2) the individual must be subjected to questioning that
meets the legal definition of interrogation.” United States v. Revels, 510 F.3d 1269, 1273 (10th
Cir. 2007).
A person is “in custody” when under the totality of the circumstances “a reasonable
[person] in the suspect’s position would have understood his situation … as the functional
equivalent of formal arrest.” Id. In a routine traffic stop situation, the stop “is characterized as
an investigative detention rather than a custodial arrest.” United States v. Wood, 106 F.3d 942,

37

Case 2:18-cr-02639-KG Document 82 Filed 11/16/18 Page 10 of 10

945 (10th Cir. 1997). Consequently, “Miranda warnings are simply not implicated in the context
of a valid Terry stop.” United States v. Perdue, 8 F.3d 1455, 1464 (10th Cir. 1993).
This view has prevailed because the typical police-citizen encounter envisioned by the
Court in Terry usually involves no more than a very brief detention without the aid of
weapons or handcuffs, a few questions relating to identity and the suspicious
circumstances, and an atmosphere that is “substantially less police dominated than that
surrounding the kinds of interrogation at issue in Miranda.”
Id. (citation and quotation marks omitted). See also United States v. Benard, 680 F.3d 1206,
1211–12 (10th Cir. 2012) (“Traffic stops do not usually implicate Miranda concerns, since a
traffic stop is typically noncoercive and nonthreatening.”).
In this case, Officer Alvarez detained Defendants in the context of a valid Terry traffic
stop. The totality of the circumstances of the detention do not suggest that Officer Alvarez used
his weapon or handcuffs to hold Defendants, or that he in some way acted in a coercive or
threatening manner which a reasonable person would perceive to be the “functional equivalent of
a formal arrest.” Defendants, therefore, have failed to demonstrate that they were in “custody”
during the traffic stop. Thus, Defendants’ Fifth Amendment rights were not implicated when
Officer Alvarez questioned them during the traffic stop.
IT IS ORDERED that Defendants’ Joint Motion to Suppress Evidence and Statements
(Doc. 66) is denied.

________________________________
UNITED STATES DISTRICT JUDGE

38

